Appendix A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1780

United States of America
Plaintiff - Appellee
v.
Alfonzo Traymayne Lee, also known as Nino, also known as Alfonzo T. Lee
Defendant - Appellant
Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:05-cr-03044-RGK-1)
JUDGMENT
Before BENTON, WOLLMAN, and ERICKSON, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
April 16, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

AppertJ/x &
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1780
United States of America
Appellee
v.
Alfonzo Traymayne Lee, also known as Nino, also known as Alfonzo T. Lee
Appellant

Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:05-cr-03044-RGK-1)
ORDER
The petition for rehearing by the panel is denied.
May 21, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

4:05-cr-03044-RGK-DLP Doc # 237 Filed: 03/25/20 Page 1 of 2 - Page ID # 1737

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF AMERICA,
Plaintiff,

4:05CR3044

vs.
MEMORANDUM AND ORDER
ALFONZO TRAYMAYNE LEE,
Defendant.
The defendant’s adjustment to prison has been, at best, mixed, That is:
Mr. Lee has been sanctioned for violations including use/possession
of alcohol drugs (x4); possess dangerous weapon (x3); assault staff
member/run away from staff to destroy contraband; fighting;
giving/accepting money without authorization; being insolent to
staff; possess unauthorized item (cooking oil); smoking marijuana;
and abusing phone privileges.
Mr. Lee has completed the drug education program and nonresidential drug counseling program. He has also completed
numerous educational and self- help programs during his
incarceration. Many of the programs are related to parenting and
financial responsibility. He earned his GED in March 2007.
Filing 203.
His criminal history category is IV. He is serving a sentence for the crack conviction that
would fall within, at the low end, the applicable Guideline range at this time together with a
consecutive sentence for a gun: 168 months on the conspiracy count and 84 months consecutive
on the gun charge. Although the defendant is eligible for a sentence reduction under the First Step
Act on the drug charge because the original sentence was based upon judge found facts, it also true
that I varied downward to what the Guideline sentence would have been now.

4:05-cr-03044-RGK-DLP Doc # 237 Filed: 03/25/20 Page 2 of 2 - Page ID # 1738

Exercising my discretion, and taking into consideration each and all of the statutory
sentencing factors,
IT IS ORDERED that motion for sentence reduction under the First Step Act, Filing no.
232, is denied. The motion to restrict, Filing no. 234, is granted.
Dated this 25th day of March, 2020.
BY THE COURT:

Richard G. Kopf
Senior United States District Judge

2

